C'OCKLE

2311 Douglas Street CA a E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B oe fs contact@cocklelegalbriefs.com
923
1-800-225-6964 Web Site
402) 342-2831 www.cocklelegalbriefs.com
2

Fax: (402) 342-4850
No.

COUNTY OF SAN DIEGO, ET AL.,
Petitioners,
Ms
ANA SANDOVAL,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 6508 words. excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 20th day of August, 2021.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

A GENERAL NOTARY-State of Nebraska ( } dau & Chk
RENEE J. GOSS 9. :

Affiant

d My Comm. Exp. September 5, 2023

 

 

Notary Public
41100
